No. 19-132
In The

Supreme Court of
tl)t fHmteb States!
Lawrence I. Fejokwu,
Petitioner,
v.
Commodity Futures Trading Commission,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
PETITION FOR REHEARING

Lawrence Ikemefune C. Fejokwu
Pro se
6905 Bellevue Avenue
2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
Law-Fej@ChazonQTA.com

11

TABLE OF CONTENTS
Page
Table of Authorities

111

Introduction

1

GROUNDS FOR REHEARING

3

I.

In the interests of justice, the Court should
grant the petition for rehearing and summarily
3
reverse the Third Circuit

II

At least one plain error in this case mandates
that the Court should grant the petition for
rehearing and summarily reverse the Third
6
Circuit.

III

The penalty in this case - the maximum
possible penalty is so extreme, indeed
draconian, that the Court should grant the
petition for rehearing and summarily reverse
7
the Third Circuit

Conclusion and Prayer

12

Ill

TABLE OF AUTHORITIES
Page(s)
Cases
CFTC v. John Robert Blakey, 19-2769 (2019)
CFTC v. Kraft 1:15-CV-02881 (2015)

1
1,3

CFTCv. Thakkar, 1:18CV00619 (2018)

2

Connor v. Finch, 431 U.S. 407, 421 n.19 (1977)

6

NFA v. IKOS; NFA Case 05-BCC-026

6

NFA v. Quants Capital Mgmt

6

Silber v. United States, 370 U.S. 717, 718 (1962)

6

United States v. Atkinson, 297 U.S. 157, 160 (1936) .6
USA v. Thakkar, 1:18CR00036 (2018)

2

Wood v. Georgia, 450 U.S. 261 (1981)

6

Other Authorities
"The U.S. v. Jitesh Thakkar: Closing Arguments” at
https://medium.com/@cmackie312/the-u-s-v-jiteshthakkar-closing-arguments-a494b4f6c9a0.............. 2
“Justice for Jitesh Thakkar; CFTC Should Drop Civil
Charges and Apologize” at
https://www.change.org/p/dick-durbin-justice-forjitesh-thakkar-cftc-should-drop-civil-charges-andapologize
2

IV

https://brobible.com/sports/article/nick-saban-rant2014 -cancel-culture/.................................................... 12
https://twitter.com/ClayTravis/status/1166036844791
980032?ref src=twsrc%5Etfw
12
Supreme Court Practice, Tenth Edition by Shapiro et
al, p. 469
6
Rules
NFA Rule 2-5

8

INTRODUCTION
On October 1-2, 2019, after submission of all
briefs in this case and prior to the entry of the order
denying certiorari in this case, the Seventh Circuit
unsealed court records in CFTC v. John Robert
Blakey, 19-2769 (2019)1 which reveal the brazenness
in which the CFTC acts in pursuing at all costs its
“wins”. While the reader may cynically consider the
above statement to be the hyperbolic protestations of
a pro se petitioner, even a measured administrativelaw lawyer, Gary DeWaal, who previously served on
the “inside”, as a CFTC trial-attorney, characterized
the case as “The Twilight Zone”, to wit:
“A litigation with three parties - a
plaintiff, two defendants and the
presiding judge. Wow! As I wrote
before, this post-settlement proceeding
is an episode out of The Twilight Zone.
It only gets stranger.”2
This observation by DeWaal uncannily matches
Fejokwu’s comments in his certiorari petition and in
his supplementary brief, quoted in order below. To
wit:
“Fejokwu, for six years has suffered
mightily at great personal and
professional loss in this regulatory
twilight zone.
The American
1 In this case Judge John Blakey was the Respondent and Kraft
was a party-in-interest. The CFTC had sued in the Seventh
Circuit for a writ of mandamus in connection with the lower court
case CFTC v. Kraft 1:15-CV-02881 (2015)
2 See, statement by Gary DeWaal of Katten Muchin at
https://www.lexologv.com/librarv/detail.aspx?g=a0892cal-3f5f47e5-9c0a-638clf0db68e

2
regulatory regime cannot be a
Kafkaesque, Alice in Wonderland
twilight zone — for even a day longer.
Fejokwu fervently prays it ends today.”
“Only this Court can bring this grave
injustice — this regulatory twilight zone
to an end. The Court should do so
posthaste.”
The ongoing CFTC v. Kraft case further
exemplifies the fact that the American regulatory
regime not only remains a Twilight Zone - but that
the near-extinguished light is only becoming dimmer
with each passing day as courts in the land look
unquestioningly, credulously, uncritically at the
CFTC/NFA.
This Court should immediately
intervene given the serendipitous3 timing of these
events and restore the light of justice.
Doing so,
Fejokwu, respectfully states is this Court’s
fundamental duty.

3 Another current example of the CFTC’s intensely unyielding,
all-powerful, unjust regulatory style is manifest in the ongoing
case CFTC v. Thakkar. The DOJ brought a criminal case against
Thakkar, on referral from the CFTC. A judge acquitted Thakkar
of one count and a jury was hung on two counts (10-2 in favor of
acquittal) leading to a mistrial. The DOJ dismissed the
indictment with prejudice and declined to re-prosecute. The
CFTC then continues a previously stayed civil case. See, CFTC
u. Thakkar, 1:18CV00619 (2018); USA v. Thakkar, 1:18CR00036
(2018); petition by the trading/brokerage community: “Justice for
Jitesh Thakkar; CFTC Should Drop Civil Charges and
Apologize” at https://www.chan.ge.org/p/dick-durbin-iusti.ce-forlitesh-thakkar-cftc-should-drop-civil-charges-and-apologize. and
“The U.S. v. Jitesh Thakkar: Closing Arguments” at
https://medium.com/@cmackie312/the-u-s-v-jitesh-thakkarclosing-arguments-a494b4f6c9a0.

3
GROUNDS FOR REHEARING
I.

In the interests of justice, the Court should
grant the petition for rehearing and
summarily reverse the Third Circuit.

A foundational tenet of justice is that agreements
be upheld and cannot be unilaterally violated. One
party cannot choose to unilaterally violate an
agreement, simply because it has a supreme sense of
its powers and confidence in the judiciary reflexively
deferring to it. This foundational tenet applies even
when the agreement is between an agency’s delegated
SRO and a solo-operator operating from a home-office.
Kraft claims in recently unsealed court records,
that “the CFTC and its Commissioners engaged in a
deliberate, orchestrated effort to violate the Court’s
consent order”.4 Among many shocking revelations in
the unsealed records was the fact that the CFTC twice
through its
Director of Enforcement, Jamie
McDonald called Kraft to request the removal of the
clause in the consent order prohibiting release of
touting statements. McDonald did this while not
revealing to Kraft that the CFTC and her
commissioners would violate the clause in the consent
order even if Kraft refused to agree to the clause’s
removal.5 Worse, in one call, McDonald lied that no

4 See, CFTC v. Kraft; Case Number: 1:15-CV-02881; U.S.
District Court, Northern District of Illinois (Chicago). See also,
“Let the sunshine in—Appellate court unseals documents in
high-stakes CFTC-Kraft Foods dispute" by Brad Rosen, J.D. at
https://iimbamiltonblog.blogspot.eom/2019/10/let-sunshineinappeIlate-courtuinseals.html
5 Id, and see, “Kraft-Mondelez tells appellate panel why
Commissioners are not entitled to mandamus relief’ at

4
commissioner planned to issue a statement. The
immediate violation of the consent order proves that
McDonald’s statement was false. On that call, Kraft
explicitly rejected the request to remove the clause
from the consent order considering it a “critical part
of the agreement”.6 Brazenly, within minutes of the
judge entering the consent order, the CFTC released
statements by the commission and two of her
commissioners.
On October 22, 2019, the Seventh Circuit
remanded the case to the district court. The district
court reopened the case, and vacated the consent
order, with Judge Blakey stating:
“Quite simply, the factual record
undermines the notion that the parties
ever agreed to the CFTC's recent legal
theory that the Consent Order would
somehow bind the CFTC as an entity,
but not bind the very agents through
which it acts, i.e., its Chairman,
Commissioners or staff members.”
Time will tell how the case is resolved.
There is a clear analog between the Kraft case
and the Fejokwu case. In both cases, the regulator
choses to violate an agreement in order to create
severe adverse outcomes for the regulatee. The NFA,
after ignoring multiple requests by Fejokwu for
meetings to resolve the matter, suddenly issues a
notice requesting a response from Fejokwu. Yet, they
proceeded posthaste to prematurely file a formal
complaint 26-days prior to the deadline.
https://ilmhami1tonblog.blogspot.com/2019/10/kraft-mondeleztells-appellate-nanel.html
e/d.

5
While it is pleasing and highly commendable to
see the multinational with its high-powered retinue of
lawyers defending her on valid principles, no matter
the outcome, no individual member of Kraft will have
his/her career permanently destroyed.
In the example of Fejokwu, that is simply not the
case. Fejokwu has received a permanent ban. This is
a professional death sentence. This is not hyperbole.
See pages 2-3 of the certiorari petition.
Regulated entities should have confidence that
the CFTC-NFA duo will keep to their agreements as
both regulator and regulatee are equal under the law.
If the CFTC agrees to a consent order it should not
post facto invent a new legal theory to justify its
immediate violation of a consent order. If the NFA
sets a deadline for a response to its notice, it should
abide by that deadline. It should not, 26-days prior
to the deadline file a complaint against Fejokwu. The
NFA acted in this way because it knew Fejokwu,
lacking legal counsel, regulatory experience, and
resources was an easy target it could race through its
in-house hearing process, while violating basic due
process protocols, to ensure a pre-ordained end permanently banning Fejokwu.
The CFTC/NFA actions are simply, most unjust.
Their actions are unquestionably against the interests
of justice. This Court is respectfully requested to
urgently intervene and summarily reverse the Third
Circuit in the plain interests of justice — to ensure that
all parties remain equal under the law and that the
CFTC-NFA are not further emboldened to act with
fearless impunity in the American regulatory
Twilight Zone they have systematically and
purposefully created through their unjust actions and
inactions.

6
II.

At least one plain error in this case
mandates that the Court should grant the
petition for rehearing and summarily
reverse the Third Circuit.

There is at least one glaring element of this case
that arises under the “Plain Error Exception” and,
thus, cries for this Court to exert its power as
“required in the interests of justice”.7 The NFA denied
Fejokwu proper notice. The NFA on May 6, 2014 sent
Fejokwu a letter indicating its examination findings
and providing him a deadline to respond yet filed the
complaint 26-days before the deadline. This fact has
never been in dispute.
The NFA knows that they did deny Fejokwu his
due-process rights — and worse they did so in
disparate fashion compared to other NFA cases.8
The NFA, CFTC and the Third Circuit all side­
stepped this issue of due-process violation. This is
clearly a plain error and “constitute [s] a fundamental
unfairness in the proceedings”.9 Additionally, the
violation of a deadline set by the regulator itself and
the avoidance of this issue by the CFTC and the Third
Circuit is a prime example of an error that “seriously
affect[s] the fairness, integrity, or public reputation of
public proceedings.”10 Ordinary Americans expect
that regulators abide by deadlines they set and
regulatees do not become liable with grave
7 See, Wood v. Georgia, 450 U.S. 261 (1981).
8 See, NFA v. Quants Capital Mgmt. See also, NFA v. IKOS; NFA
Case 05-BCC-026.
9 See, Supreme Court Practice, Tenth Edition by Shapiro et al, p.
469
10 See, United States v. Atkinson, 297 U.S. 157,160 (1936), quoted
in Silber v. United States, 370 U.S. 717, 718 (1962), and Connor
v. Finch, 431 U.S. 407, 421 n.19 (1977)

7
repercussions due to the regulator filing a complaint
26-days prior to their own deadline. The Court should
summarily reverse this case to restore “the fairness,
integrity, or public reputation of public proceedings”.
III. The penalty in this case - the maximum
possible penalty is so extreme, indeed
draconian, that the Court should grant the
petition for rehearing and summarily
reverse the Third Circuit.
What began as a minor discovery dispute has
resulted in devastating consequences for Fejokwu — a
professional death penalty with the added “bonus” of
irreparable damage to his personal reputation if this
Court does not reverse.
Though Fejokwu
acknowledges that he might have been “naive[]” and
“foolish[]” to adhere so adamantly to “what [he] felt
was a valid principle,”, namely that the NFA does not
have an unfettered right to demand sensitive
financial information from nonmembers, Fejokwu
reiterates that he acted at all times in good faith and
was never reckless.
Fejokwu’s actions were simply the result of
trusting the “system” to treat him fairly and provide
him due-process not merely in appearance but in form
and substance. He attended the Hearing pro se, under
the naivete of innocence - he did not see the need to
hire lawyers he could not afford for a case in which he
was innocent. In popular parlance, there was no need
to “lawyer-up”, when one’s conscience was and
remains clear. He viewed the Hearing as effectively a
subpoena hearing, where the result would be either a
finding that his position that the document was not
required was valid or that the NFA had a right to the
document.
In the latter case, his worst case

8
assumption, was that the Hearing Panel would issue
a direct order (as they could and probably should
under NFA Rule 2-5)11 to provide the document within
a defined time window or be subject to indefinite
suspension until he complies.
Even if one believes the NFA had a legitimate
regulatory reason to seek the document, then the
perplexing question is why did the NFA not pursue
that judicious outcome of issuing an order to provide
the document by a certain time or face indefinite
suspension until the document is provided. Such an
outcome would have become a de facto permanent bar,
if Fejokwu refused to comply. But, if he did comply,
this would have been a fair avenue to allow him to
clear his name after standing upon principle and move
forward with his career and life.
Mystifyingly, lacking any pretense of fairness or
justice, the NFA/CFTC purposefully, chose to push
Fejokwu punitively, vindictively into the professional
abyss. It is for this reason that all attempts by
Fejokwu to provide the bank statement to the NFA
after the Hearing were rebuffed/rejected. Worse, the
CFTC blatantly, repeatedly lied to the Third Circuit
to deny all these attempts.
If regulation was their aim, they would have
responded to Fejokwu’s requests for meetings to
clarify and understand the justification for the
document request — after all an integral part of
regulation is education. After such meetings, if the
dispute remained, they could have referred the case to
11 The second sentence of Rule 2-5 states “Each Member
and Associate shall comply with any order issued by the ....
NFA hearing or arbitration panel.”

9
the CFTC, the agency that does have de jure subpoena
powers. By so doing, this would have ensured that the
CFTC had justified the rationale for issuing a
subpoena. Additionally, this would have allowed for a
district judge to determine the legitimacy of the
subpoena request. In such scenario, no sanction
would be issued until after a determination was made
that the request was valid, and compliance was failed.
If regulation was their aim, they would have
accepted the emailed bank statement when they
received it on March 26, 2014, the first full day of the
hearing, and immediately ended the investigation or
if they had questions or needed verification, obtained
that trivial verification from Barclays at that time.
If regulation was their aim, they would not have
mysteriously held back the email bank statement
from evidence at the Hearing despite it being evidence
they knew they possessed.
If regulation was their aim, since Fejokwu was
withdrawing from NFA membership and not
continuing as a member, the NFA could have simply
allowed him to withdraw from membership and
conditioned any future approval of an application for
membership on providing the document. In fact, in
other NFA cases, they have adopted a similar
approach. Why in other cases, but not in Fejokwu’s
case?!
All these options above, are trivial actions that a
party acting fairly and justly could have easily
pursued saving the time and expense of all parties
involved and would have saved the time of this Court.
Popular culture and social media have created
and aggressively promoted “cancel culture” where
individuals can have their careers “cancelled” by the

10
popular culture/social media vanguard for real or
perceived offenses. A permanent ban, that is, a
cancellation of one’s career should not become the
default outcome for every offense alleged by a
regulator, especially when other resolutions exist.
The negative imprimatur of such a career cancellation
creates a professional death penalty that reverberates
globally. The cancel culture of popular culture should
not be allowed to extend to the regulatory domain.
This Court has a duty to ensure cancel culture is
cancelled from the regulatory domain.
Coach Nick Saban may not be a legal authority,
but true justice is always in Solomonic fashion
grounded in commonsense. Coach Saban speaks
powerfully on cancel culture and his statements speak
forcefully about Fejokwu’s case. Should Fejokwu, a
young man in his prime be subject to a professional
death penalty because of a simple document dispute,
a document the NFA has always had? Indeed, it is not
even a document dispute but a dispute over a
document format — as the NFA insists the document
they have is an “unauthenticated email”, and they
seek a document in PDF format — yet the NFA
refused to accept the PDF when offered.
I close this section with Coach Saban’s full
statement:
“There’s always a lot of criticism out there
when somebody does something wrong,
everybody wants to know how are you
going to punish the guy? But there’s not
enough for 19-and-20 year-old kids people
out there saying ‘why don’t you give him
another chance?’

11
So I’m going to give a speech right now
about this.
Like, where do you want him to be? Guy
makes a mistake. Where do you want him
to be? You want him to be in the street? Or
do you want him to be here graduating?
You know when I was over there at the
Nagurski (Award banquet in Charlotte,
N.C.), Muhsin Muhammad, who played 15
years for the Carolina Panthers, played for
me at Michigan State.
Everybody in the school, every newspaper
guy, everybody was killing the guy
because he got in trouble and said there’s
no way he should be on our team.
I didn’t kick him off the team. I suspended
him, I made him do stuff.
He graduated from Michigan State. He
played 15 years in the league, he’s the
president of a company now, and he has
seven children, and his oldest daughter
goes to Princeton.
SO WHO WAS RIGHT?
I feel strong about this now, really strong.
About all the criticism out there of every
guy that’s 19 years old that makes a

12
mistake and you all kill him. And then
some people won’t stand up for him.
So my question to you is ‘where do you
want him to be?’ You want to condemn him
to a life sentence or do you want the guy to
have his children going to Princeton?
You want to close on that?”12
CONCLUSION AND PRAYER
In my native Nigeria, there is a popular
aphorism in Nigerian pidgin English: “Thank God say
God no be man”. Translated into the Queen’s English
this means: “Thank God that God is not like man.”
The underlying meaning of the aphorism and its
usage is to convey the truth that if God were like man
- unforgiving, merciless, cruel, inexorable, severe,
vindictive, ironfisted, — pick your adjective — then we
humans would all be dead, as He would use His power
to strike us all down instantly for our numerous
sins/failings.
In the USA, the Justices of this Court while not
God, are ultra-rarefied and in our constitutional
democracy rule supreme with deity like powers. The
Justices should not act like man as the NFA and CTC
have. Instead, the Justices should use their powers
like God — acting swiftly and forcefully to bestow
mercy and justice on Fejokwu by:

12 See video with nearly seven million views at
https://twitter.eom/ClavTravis/status/11660368447919800327re
f src=twsre%5Etfw and see,
https://brobible.com/sports/article/nick-saban-rant-2014-cancelculture/.

13
1.

Granting the petition for rehearing;

2.

Vacating the denial of the petition for a writ
of certiorari;

3.

Granting the petition for a writ of certiorari;

4.

Summarily reversing the judgment of the
Third Circuit; and

5.

Remanding the case with instructions to
(a) vacate the decision of the NFA hearing
panel; and
(b) dismiss with prejudice the NFA
complaint against Fejokwu.
Respectfully submitted, with gratefulness,
LAWRENCE IKEMEFUNE C. FEJOKWU
Pro se
6905 Bellevue Avenue, 2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
November 1, 2019 Law-Fei@ChazonQTA.com

14
RULE 44.2 CERTIFICATE
I hereby certify that this Petition for Rehearing is
submitted in good faith and not for delay. This Petition
for Rehearing is restricted to the grounds set out in
Rule 44.2.

Lawrence Ikemepijxe C. Fejqkwc

